HHS/OIG, Audit -"Audit of HIV/AIDS Grant Expenditures at the Sexual Minority Youth Assistance League for the Period September 30, 2001 through September 29, 2002,"(A-03-03-00393)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of HIV/AIDS Grant Expenditures at the Sexual Minority Youth Assistance League for the Period September 30,
2001 through September 29, 2002," (A-03-03-00393)
October 21, 2003
Complete
Text of Report is available in PDF format (359 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Sexual Minority Youth Assistance League (SMYAL):  (1)
met grant performance expectations during the period September 30, 2001 through September 29, 2002 for a grant funded by
the Centers for Disease Control and Prevention (CDC); and (2) was in compliance with grant financial and reporting requirements.  We
found that in general SMYAL has met CDC performance expectations, and was compliant with the grant financial and reporting
requirements. Specifically, SMYAL improved its internal accounting controls during the audit period in three areas, time
reporting, cash disbursements and policies and procedures.These improvements will help to ensure that grant expenses are
properly documented and grant funds are used for the intended purpose.  However, SMYAL charged $1,155 in unallowable
costs for advertising buttons and stickers that were not related to the grant. We recommended that SMYAL:  (1) continue
improving its internal accounting controls, internal accounting control awareness and provide effective dates, revision
numbers and board approval on its financial policies and procedures; and (2) return $1,155 to the grant for unallowable
costs that were incurred for advertising buttons and stickers.  SMYAL concurred with our findings and recommendations.